Audit Report




OIG-12-009
Audit of the Federal Financing Bank’s Fiscal Years 2011
and 2010 Financial Statements
November 15, 2011




Office of
Inspector General
Department of the Treasury
                                         DEPARTMENT OF THE TREASURY
                                                W ASHINGTON, D.C. 20220




     OFFICE OF                                     November 15, 2011
INSPECTOR GENERAL




            MEMORANDUM FOR SECRETARY GEITHNER

            FROM:                    Eric M. Thorson
                                     Inspector General

            SUBJECT:                Audit of the Federal Financing Bank’s Fiscal Years 2011 and 2010
                                    Financial Statements


            I am pleased to transmit the attached audited Federal Financing Bank’s (FFB) financial
            statements for fiscal years 2011 and 2010, as required by the Government Corporation Control
            Act.

            DISCUSSION:

            Under a contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of the financial statements of FFB as of
            September 30, 2011 and 2010 and for the years then ended. The contract required that the audit
            be performed in accordance with generally accepted government auditing standards; applicable
            provisions of Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in conformity with
                    U.S. generally accepted accounting principles;
                •   no matters involving internal control and its operations that are considered material
                    weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.
Page 2

KPMG LLP also issued a management letter dated November 14, 2011, discussing a matter
involving internal control over financial reporting and its operation that was identified during the
audit but was not required to be included in the auditors’ reports.

In connection with the contract, we reviewed KPMG LLP’s reports and related documentation
and inquired of its representatives. Our review, as differentiated from an audit in accordance
with generally accepted government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG LLP is
responsible for the attached auditors’ reports dated November 14, 2011, and the conclusions
expressed in the reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing standards.

Should you have any questions, please contact me at (202) 622-1090, or a member of your staff
may contact Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc:      Cyrus Amir-Mokri
         Acting Under Secretary for Domestic Finance

         Joseph I. Lieberman, Chairman
         Committee on Homeland Security
         and Governmental Affairs

         Susan M. Collins, Ranking Member
         Committee on Homeland Security
         and Governmental Affairs

         Darrell E. Issa, Chairman
         Committee on Oversight and
         Government Reform

         Elijah Cummings, Ranking Member
         Committee on Oversight and
         Government Reform
     FEDERAL FINANCING BANK
           Financial Statements
       September 30, 2011 and 2010
(With Independent Auditors’ Report Thereon)
                                     FEDERAL FINANCING BANK


                                             Table of Contents



                                                                            Page

Management’s Discussion and Analysis                                          1

Independent Auditors’ Report                                                  6

Financial Statements                                                          7

Notes to Financial Statements                                                10

Other Supplementary Information – Schedule 1                                 21

Independent Auditors’ Report on Internal Control Over Financial Reporting    22

Independent Auditors’ Report on Compliance and Other Matters                 24
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2011 and 2010



Introduction

The Federal Financing Bank (the Bank) is a government corporation under the general supervision and direction
of the Secretary of the Treasury. The Congress created the Bank in 1973, at the request of the U.S. Department of
the Treasury (Treasury). The Bank actively borrows from Treasury and lends to Federal agencies and private
borrowers that have Federal guarantees. The Bank also has a debt obligation to the Civil Service Retirement and
Disability Fund.

Mission

The mission of the Bank is to reduce the costs of Federal and federally assisted borrowings, to coordinate such
borrowings with the Government’s overall fiscal policy, and to ensure that such borrowings are done in ways that
least disrupt private markets. To accomplish this mission, the Bank exercises its broad statutory authority to
purchase obligations issued, sold, or guaranteed by Federal agencies.

Objectives

The Bank was formed to be the vehicle through which Federal agencies finance programs involving the sale or
placement of credit market instruments, including agency securities, guaranteed obligations, participation
agreements, and the sale of assets. This principle is applied in a manner consistent with the Federal Financing
Bank Act of 1973 (12 U.S.C. 2281 et seq.) and its legislative history. Guaranteed programs entailing large
numbers of relatively small loans in which local origination and servicing are an integral part of the program are
excluded.

The Bank makes funds available to Federal agencies and to guaranteed borrowers in accordance with program
requirements. The Bank is capable of providing a lending rate for any amount required and for nearly any
maturity. The rates charged by the Bank for terms such as prepayment provisions and pass-through of service
charges are applied consistently for all borrowers.

The lending policy of the Bank is flexible enough to preclude the need for any accumulation of pools of funds by
agencies. This does not exclude the maintenance of liquidity reserves for those agencies that have such a need. In
no case will funds provided by the Bank be invested in private credit instruments or be used to speculate in the
market for public securities.

Organizational Structure

The Bank is subject to the general supervision and direction of the Secretary of the Treasury. The Board of
Directors is comprised of the incumbents of the following Treasury offices: the Secretary of the Treasury, who as
provided by law, is the Chairman; the Deputy Secretary; the Under Secretary for Domestic Finance; the General
Counsel; and the Fiscal Assistant Secretary.

The officers are incumbents of the following Treasury offices (corresponding Bank positions are in parentheses):
the Under Secretary for Domestic Finance (President); the General Counsel (General Counsel); the Assistant
Secretary for Financial Markets (Vice President); the Fiscal Assistant Secretary (Vice President); the Deputy
Assistant Secretary for Government Financial Policy (Vice President and Treasurer); and the Director, Office of
Federal Lending (Secretary and Chief Financial Officer). A delegation by the Bank President authorizes any
Bank Vice President, in consultation with any other Bank officer, to exercise the powers of the Presidency.

                                                        1
                                        FEDERAL FINANCING BANK
                                     Management’s Discussion and Analysis
                                          September 30, 2011 and 2010



The staff of the Bank is organized into three units: loan administration, loan accounting, and computer support.
The loan administration and accounting managers and the Chief Information Officer (CIO) report to the Chief
Financial Officer (CFO). The loan administration manager is responsible for the loan administration unit, which
includes the duties and responsibilities associated with credit analysis, loan origination, loan structuring, and
customer service. The loan accounting manager heads a team of professionals responsible for loan
disbursements, repayments, accounting, and financial reporting. The CIO is responsible for a team of information
systems professionals and contractors that conduct in-house software development and maintain the Bank’s
Oracle®-based, mission-critical enterprise application. That application provides systems support for the loan
administration and accounting functions.

Loan Programs Activity

Title XVII of the Energy Policy Act of 2005 created a loan guarantee program to be administered by the
Department of Energy (DOE) for innovative technologies. The Bank provides financing commitments for the
loan guarantee programs by entering into a Program Financing Agreement with the DOE. In fiscal year 2011, the
Bank entered into 31 note purchase agreements that commit the Bank to purchase notes issued by borrowers
whose loans will be backed by the full faith and credit of the U.S. Government by the Secretary of Energy. The
maximum principal amount of the note purchase agreements are $9,370,560 thousand. One of the new notes,
SoloPower, Inc. has not been purchased as of September 30, 2011. The maximum principal amount for
SoloPower, Inc. is $184,978 thousand.

The Secretary of Energy is authorized to issue loans under Section 136 of the Energy Independence and Security
Act of 2007, as amended by section 129 of Division A of the Consolidated Security, Disaster Assistance, and
Continuing Appropriations Act of 2009, through the Advanced Technology Vehicles Manufacturing Loan
Program. Under the program, the Secretary of Energy may make loans to automobile and automobile part
manufacturers to finance the cost of reequipping, expanding, or establishing manufacturing facilities in the
United States to produce advanced technology vehicles or qualified components, and for associated engineering
integration costs. In fiscal year 2011, the Bank entered into a note purchase agreement that commits the Bank to
purchase notes issued by the Vehicle Production Group, LLC., backed by the full faith and credit of the U.S.
Government by the Secretary of Energy. The maximum principal amount of the note is $49,962 thousand.

Under a provision in the 1987 enabling legislation for the U.S. Department of Agriculture’s Rural Utilities
Services (RUS) Cushion of Credit Payments Program (cushion of credit), the Bank receives considerably less
interest each year on certain RUS loans that it holds than it is contractually entitled to receive. The shortfall in
interest received by the Bank has resulted in substantial deficits in the past. The cumulative losses from interest
credits taken by the RUS, beyond losses that were extinguished by appropriation in a previous year, totaled
$1,921,637 thousand through September 30, 2011. The interest shortfall is recorded on the statement of
operations and changes in net position as a legislatively mandated interest credit (contra-revenue to interest on
loans).

The Balanced Budget and Emergency Deficit Control Act of 1985, commonly known as
Gramm-Rudman-Hollings Act, the Consolidated Omnibus Budget Reconciliation Act of 1985, and the Federal
Credit Reform Act of 1990 included provisions that have acted as prohibitions and disincentives against the Bank
financing certain loans that are 100 percent guaranteed by Federal agencies.



                                                         2
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2011 and 2010



Section 6102 of the Food, Conservation, and Energy Act of 2008 reinstated the direct loan program for the RUS
Electric Program, eliminating the borrower’s right to have loans financed by the Bank. Eventually, RUS
anticipates financing new electric loans through a direct loan program instead of financing the loans through the
Bank.

New Borrowing Agreement

Effective in fiscal year 2010, the Bank executed a new agreement with the Secretary of the Treasury to borrow
funds used for certain guaranteed loans that require the guaranteeing federal agencies to comply with the Federal
Credit Reform Act (FCRA) (2U.S.C. 661(d)(3)). As a result, the interest rate, interest payable, and interest
expense for borrowings from Treasury that are used to fund certain guaranteed loans subject to FCRA are
determined annually by the borrowing agencies using the FCRA and Office of Management and Budget (OMB)
guidelines.

Impact of Economic Conditions

Current economic conditions have had an impact on programs that borrow from the Bank. Certain borrowers
have repaid their loans with the Bank early, while other borrowers have increased their borrowing activities with
the Bank.

All FFB assets are, or have a commitment to be, full faith and credit obligations of the U.S. Government and
economic conditions do not affect repayments to the Bank. Loans backed by the full faith and credit of the U.S.
Government are the credit equivalent of Treasury securities. The Bank does not expect to suffer any credit losses
from loans backed by the full faith and credit of the U.S. Government.

United States Postal Service

The United States Postal Service (USPS) is an independent establishment of the executive branch of the U.S.
Government, which borrows from the Bank to finance its capital improvements and defray operating expenses.
USPS is able to borrow up to $3,400 million with a maximum term of up to one year. In addition, USPS can
borrow up to $600 million on an overnight basis. The USPS is also limited by statute to net annual debt increases
of $3 billion with a total borrowing authority of $15 billion.

The USPS had a fiscal year 2011 deficit due to a decline in mail volume, higher retiree health benefit costs, and
cost of living adjustments. The Administration, Congress, and other stakeholders are aware of the current and
long-term financial issues of USPS. The USPS provides an essential service to the United States and there are
several potential legislative solutions to help ensure the financial liquidity of the USPS.

The Bank has not incurred any credit-related losses on its loans as of the date of these statements, and as stated
above, all FFB assets are, or have a commitment to be, full faith and credit obligations of the U.S. Government.




                                                        3
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2011 and 2010



Financial Highlights

Statements of Operations and Changes in Net Position Highlights

The following is a synopsis of the financial performance of the Bank for the fiscal year ended September 30,
2011. Interest on loans of $2,319,867 thousand for the fiscal year ended September 30, 2011 decreased compared
to the interest on loans of $2,354,327 thousand for the fiscal year ended September 30, 2010 primarily due to the
decrease in the total loans receivable balance despite the increase in total borrowing by RUS and DOE. The
legislatively mandated interest credits reduced interest income by $249,813 thousand and $271,461 thousand for
the fiscal years ended September 30, 2011 and 2010, respectively, and are related to RUS “cushion of credit”
loans. Revenue from servicing loans of $2,120 thousand for the fiscal year ended September 30, 2011 decreased
from $2,332 thousand for the fiscal year ended September 30, 2010 due to the maturity of the loans being
serviced.

Interest on borrowings of $1,860,498 thousand for the fiscal year ended September 30, 2011 increased from the
interest on borrowings of $1,630,511 thousand for the fiscal year ended September 30, 2010 primarily due to the
change in repayment structure resulting from the new borrowing agreement with the Secretary of the Treasury.
After administrative expenses of $5,399 thousand, net income of $206,769 thousand for the fiscal year ended
September 30, 2011 decreased from the net income of $449,496 thousand for the fiscal year ended September 30,
2010. In fiscal year 2011, the Bank prepaid some borrowings from Treasury. The transaction resulted in a
prepayment loss of $648 thousand, reported as a loss on extinguishment of borrowings treated as capital
transactions.

Statements of Financial Position Highlights

Funds with U.S. Treasury (cash equivalents) amounted to $841,853 thousand at September 30, 2011, which
represents a decrease from the September 30, 2010 balance of $1,671,095 thousand. The decrease is due to a
prepayment to the Treasury of $902,906 thousand for fiscal year 2011.

The loan portfolio (loans receivable) decreased $2,220,399 thousand from $59,308,291 thousand at
September 30, 2010 to $57,087,892 thousand at September 30, 2011. The change is primarily the result of a
decrease in short-term loans of $10,100,705 thousand to the National Credit Union Administration’s Central
Liquidity Facility, partially offset by $2,914,433 thousand increase in loan activity to the Department of
Agriculture $3,997,618 thousand increase in new loans to the Department of Energy, and other loan increases.
The Bank’s net position increased to $3,999,315 thousand at September 30, 2011 from $3,793,194 thousand at
September 30, 2010 primarily as a result of positive earnings.

All of the loans in the Bank’s portfolio are federally guaranteed or have a commitment to be full faith and credit
obligations of the United States. The Bank’s borrowings decreased by $3,231,860 thousand due to a decline in
lending activities.

Performance Highlights

During fiscal year 2011, the Bank processed 1,443 new loan requests. The interest rate was set or reset on 2,934
loans in fiscal year 2011 for new loans and maturity extensions. The Bank processed 121 prepayments and
31,519 loan payments in fiscal year 2011.


                                                        4
                                       FEDERAL FINANCING BANK
                                    Management’s Discussion and Analysis
                                         September 30, 2011 and 2010



Management Controls

The Bank completed an in-depth testing of its internal accounting and administrative control procedures in
accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control, as of June 2011.
Additionally, in fiscal year 2009, a private contractor performed a certification and accreditation of the Bank’s
enterprise management system, known as the Loan Management Control System, which is effective for three
years.

Accordingly, we believe that the Bank’s systems of internal accounting and administrative controls fully comply
with the requirements for agency internal accounting and administrative control systems, providing reasonable
assurance that they are achieving the intended objectives.




                                                       5
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389

                                         Independent Auditors’ Report

Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:


We have audited the accompanying statements of financial position of the Federal Financing Bank (the
Bank) as of September 30, 2011 and 2010, and the related statements of operations and changes in net
position and cash flows for the years then ended (hereinafter referred to as “financial statements”). These
financial statements are the responsibility of the Bank’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the Bank’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Federal Financing Bank as of September 30, 2011 and 2010, and the results of its
operations and its cash flows for the years then ended in conformity with U.S. generally accepted
accounting principles.

Our audits were conducted for the purpose of forming an opinion on the financial statements taken as a
whole. The information in the Management’s Discussion and Analysis and other supplementary
information included in Schedule 1 is presented for purposes of additional analysis and is not required as
part of the financial statements. This information has not been subjected to auditing procedures and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 14,
2011, on our consideration of the Bank’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 14, 2011

                                                                  6
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                      FEDERAL FINANCING BANK
                                      Statements of Financial Position
                                       September 30, 2011 and 2010
                                           (Dollars in thousands)




                             Assets                                         2011         2010
 Funds with U.S. Treasury                                           $       841,853    1,671,095
 Investments held-to-maturity (notes 3 and 6)                               493,254      492,614
 Loans receivable (notes 4, 6, and 9)                                    57,087,892   59,308,291
 Accrued interest receivable                                                151,227      155,689
 Advances to others                                                              66          106
              Total assets                                          $    58,574,292   61,627,795

                 Liabilities and Net Position
 Liabilities:
    Borrowings:
       Principal amount                                             $    54,250,478   57,440,112
       Plus unamortized premium                                             137,781      180,007
              Total borrowings (notes 5, 6, 8, and 9)                    54,388,259   57,620,119
    Accrued interest payable                                               186,291      214,275
    Other liabilities                                                          427          207
              Total liabilities                                          54,574,977   57,834,601
 Loan and interest credit commitments (notes 10 and 1(j))
 Net position (note 7)                                                    3,999,315    3,793,194
              Total liabilities and net position                    $    58,574,292   61,627,795

See accompanying notes to financial statements.




                                                     7
                                      FEDERAL FINANCING BANK
                           Statements of Operations and Changes in Net Position
                                Years ended September 30, 2011 and 2010
                                          (Dollars in thousands)




                                                                         2011         2010
 Revenue and financing sources:
   Interest on loans                                               $   2,319,867    2,354,327
   Less legislatively mandated interest credit                          (249,813)    (271,461)
              Net interest on loans                                    2,070,054    2,082,866
    Interest on investments                                                  492          546
    Revenue from servicing loans                                           2,120        2,332
              Total revenue                                            2,072,666    2,085,744
 Expenses:
   Interest on borrowings                                              1,860,498    1,630,511
   Administrative expenses                                                 5,399        5,737
              Total expenses                                           1,865,897    1,636,248
              Net income                                           $    206,769      449,496

 Net position:
   Beginning of year                                               $   3,793,194    3,347,933
   Net income                                                            206,769      449,496
   Loss on extinguishment of borrowings treated as
       capital transactions (note 8)                                       (648)       (4,235)
    End of year (note 7)                                           $   3,999,315    3,793,194


See accompanying notes to financial statements.




                                                    8
                                   FEDERAL FINANCING BANK
                                         Statements of Cash Flows
                               Years ended September 30, 2011 and 2010
                                          (Dollars in thousands)




                                                                             2011            2010
 Cash flows from operations:
   Net income                                                       $        206,769         449,496
   Adjustments to reconcile net income to net cash provided
       by operations:
          Amortization of premium on borrowings                              (42,226)        (48,920)
          Capitalization of interest receivable                               (9,332)         (1,172)
          Capitalization of interest payable                                 184,037         180,017
          Decrease in accrued interest receivable                              4,462          70,902
          Decrease in advances to others                                          40             163
          Decrease in accrued interest payable                               (27,984)        (19,372)
          Increase in other liabilities                                          220             147
                Net cash provided by operations                              315,986         631,261
 Cash flows from investing activities:
   Investment purchases                                                          (640)           (577)
   Loan disbursements                                                    (594,804,927)   (227,292,664)
   Loan collections                                                       597,034,658     229,550,396
                Net cash provided by investing activities                   2,229,091       2,257,155
 Cash flows from financing activities:
   Borrowings                                                             594,805,568     228,200,921
   Repayments of borrowings                                              (598,179,887)   (230,204,612)
                Net cash used in financing activities                      (3,374,319)     (2,003,691)
                Net (decrease) increase in cash                              (829,242)       884,725
 Funds with U.S. Treasury – beginning of the period                         1,671,095        786,370
 Funds with U.S. Treasury – end of the period                       $        841,853        1,671,095

 Supplemental disclosures of cash flow information:
   Interest paid (net of amount capitalized)                        $       1,730,674       1,517,775

 Supplemental schedule of noncash investing and financing activities:
   Loss on early extinguishment of borrowings treated as
      capital transactions (note 8)                                 $            (648)         (4,235)


See accompanying notes to financial statements.

                                                    9
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010
                                             (Dollars in thousands)



(1)   Summary of Significant Accounting Policies
      The Federal Financing Bank (the Bank) was created by the Federal Financing Bank Act of 1973
      (12 USC 2281) as an instrumentality of the U.S. Government and a body corporate under the general
      supervision of the Secretary of the Treasury (the Secretary). The budget and audit provisions of the
      Government Corporation Control Act are applicable to the Bank in the same manner as they are applied to
      other wholly owned government corporations.

      The Bank was established by Congress at the request of the U.S. Department of the Treasury (Treasury), in
      order “to assure coordination of Federal and federally assisted borrowing programs with the overall
      economic and fiscal policies of the U.S. Government, to reduce the cost of Federal and federally assisted
      borrowing from the public, and to assure that such borrowings are financed in a manner least disruptive of
      private financial markets and institutions.” The Bank was given broad statutory authority to finance
      obligations issued, sold, or guaranteed by Federal agencies so that the Bank could meet these debt
      management objectives.

      The Bank is authorized to issue obligations to the public in amounts not to exceed $15,000,000 with the
      approval of the Secretary. Additionally, the Bank is authorized to issue obligations in unlimited amounts to
      the Secretary and, at the discretion of the Secretary, may agree to purchase any such obligations.

      (a)   Basis of Presentation
            The Bank has historically prepared its financial statements in accordance with accounting principles
            generally accepted in the United States of America (GAAP), based on standards issued by the
            Financial Accounting Standards Board (FASB), the private-sector standards-setting body. In
            October 1999, the American Institute of Certified Public Accountants (AICPA) designated the
            Federal Accounting Standards Advisory Board (FASAB) as the standards-setting body for the
            establishment of accounting principles generally accepted in the United States of America with
            respect to the financial statements of Federal government entities. The FASAB has indicated that
            financial statements prepared based upon standards promulgated by the FASB may also be regarded
            as in accordance with GAAP for those Federal entities, such as the Bank, that have issued financial
            statements based upon FASB standards in the past. Accordingly, consistent with historical reporting,
            the Bank’s financial statements are presented in accordance with accounting and financial reporting
            standards promulgated by the FASB.

      (b)   Basis of Accounting
            The financial statements are presented on the accrual basis of accounting. The Bank recognizes loans
            when they are issued and related repayments when they are received. The Bank recognizes
            investments when they are made and investment redemptions when the proceeds are received. The
            Bank recognizes borrowings when they are received and repayments when they are made. In
            addition, the Bank recognizes interest on loans, interest on investments, and revenue from servicing
            loans when they are earned and recognizes interest on borrowings and expenses when they are
            incurred.



                                                       10                                            (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2011 and 2010
                                        (Dollars in thousands)



(c)   Funds with U.S. Treasury
      As a government corporation, the Bank maintains a Fund Balance with Treasury (fund
      account 20X4521) and does not hold cash. For the purposes of the statements of cash flows, the
      funds with Treasury are considered cash.

(d)   Investments
      The Bank’s investments consist of investments in U.S. Treasury securities for the Home Ownership
      Preservation Entity (HOPE) Fund. The securities are categorized as held to maturity, because the
      Bank has the ability and intent to hold the securities until maturity. The securities are recorded at par
      value.

(e)   Loans Receivable
      The Bank issues loans to Federal agencies for their own use or to private sector borrowers whose
      loans are guaranteed by a Federal agency. When a Federal agency has to honor a guarantee because a
      private sector borrower defaults, the Federal agency must obtain an appropriation or use other
      resources to pay the Bank. All Bank assets are, or have a commitment to be, full faith and credit
      obligations of the U.S. Government. Accordingly, the Bank has not recorded a reserve for default on
      any loans receivable.

      The Bank has not incurred any credit-related losses on its loans as of the date of these statements.

(f)   Interest on Loans
      The Bank’s general policy is to capture the liquidity premium between Treasury securities and the
      private sector lending rates, and to charge a rate that reflects the risk inherent in a borrower or
      transaction, when such a rate will accomplish a broader goal. The income resulting from the interest
      spread covers the administrative expenses of the Bank. Under amendments to the Federal Credit
      Reform Act (FCRA), effective October 1, 1998, while the Bank is permitted to charge a spread on
      new lending arrangements with government-guaranteed borrowers, the margin is not retained by the
      Bank, but rather is retained by the loan guarantor. In the event that this results in the Bank being
      unable to fund its administrative expenses related to these loans, the FCRA, as amended, states that
      the Bank may require reimbursement from loan guarantors.

(g)   Capitalized Interest
      In accordance with their loan agreements with the Bank, the General Services Administration (GSA),
      Historically Black Colleges and Universities (HBCU), and Veteran Administration Transitional
      Housing (VATH) have the option of deferring payments of interest on their loans until future
      periods. When GSA, HBCU, or VATH elect, in advance, to defer interest payments, the accrued
      interest is recorded as capitalized interest receivable and added to the respective loan balance by the
      Bank. The Bank correspondingly capitalizes the interest payable on its related borrowings.




                                                  11                                              (Continued)
                                 FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2011 and 2010
                                        (Dollars in thousands)



(h)   Premium on Borrowings
      The Bank amortizes the premium on borrowings using the effective-interest method. The
      amortization is recorded as part of interest on borrowings on the statements of operations and
      changes in net position.

(i)   Interest on Borrowings from Treasury to Fund Amounts Treated as Lending to Financing
      Accounts
      The interest on borrowings from Treasury is based on the daily Treasury New Issue Curve (TNIC)
      for all borrowings, except for borrowings used to fund certain guaranteed loans that require the
      guaranteeing federal agencies to comply with the FCRA (2U.S.C. 661(d)(3)). The interest rate,
      interest payable, and interest expense for borrowings from Treasury that are used to fund certain
      guaranteed loans subject to FCRA are determined annually by the borrowing agencies using the
      FCRA and Office of Management and Budget guidelines.

(j)   Legislatively Mandated Interest Credit
      In prior years, the Bank purchased certificates of beneficial ownership (i.e., loans reported as loans
      receivable on the statement of financial position) from the U.S. Department of Agriculture’s Rural
      Utilities Services (RUS). RUS used the funds received from the Bank to issue loans to nonfederal
      entities, specifically private utility companies. In 1987, Congress passed legislation (i.e., 7 USC Sec.
      940c – Cushion of Credit Payments Program) that required RUS to develop and promote a program
      to encourage private utility companies to voluntarily make deposits into cushion of credit accounts
      established within RUS. The legislation also indicated that private utility companies may reduce the
      balance of their cushion of credit account only if the reduction is used to make scheduled payments
      on loans received from RUS. In accordance with the legislation, the private utility companies accrue
      interest at the higher of 5% per annum or the weighted average rate of the certificates of beneficial
      ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also
      indicated that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS
      pays to the private utility companies. The Bank records the interest credit in the period the cost is
      incurred as a legislatively mandated interest credit (contra-revenue to interest on loans) in the
      statements of operations and changes in net position.

(k)   Revenue from Servicing Loans
      The Bank charges certain RUS borrowers a loan service fee that is reported as revenue from
      servicing loans on the statements of operations and changes in net position. The Bank’s loan
      servicing fee is equal to one-eighth of one percent more than the contractual interest rate with
      Treasury.

(l)   Administrative Expenses
      The Bank is subject to the general supervision and direction of the Secretary. As provided by law,
      the Secretary acts as chairman of the Board of Directors. Employees of Treasury’s Departmental
      Offices perform the Bank’s management and accounting functions, and its legal counsel is the
      General Counsel of the Treasury. The Bank reimburses Treasury for the facilities and services it
                                                  12                                             (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2011 and 2010
                                              (Dollars in thousands)



            provides. The amounts of such reimbursements are reported as administrative expenses in the
            statements of operations and changes in net position.

      (m)   Net Position
            The Bank can borrow from Treasury to meet its immediate cash needs and can also seek
            appropriations from Congress to make up for accumulated losses that will not be met by income.

      (n)   Loan Commitments
            The Bank recognizes loan commitments when the Bank and the other parties fully execute the
            promissory notes and reduces loan commitments when the Bank issues loans or when the
            commitments expire. Most obligations of the Bank give a borrower the contractual right to a loan or
            loans immediately or at some point in the future. The Bank limits the time available for a loan under
            an obligation, where applicable.

      (o)   Management’s Use of Estimates
            The preparation of financial statements in conformity with GAAP requires management to make
            estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
            contingent assets and liabilities at the date of the financial statements and the reported amounts of
            income and expenses during the reporting period. The significant estimates made by management are
            the fair value calculations. Actual results could differ from those estimates.

      (p)   Tax-Exempt Status
            The Bank is exempt from tax in accordance with Section 11(a) of the Federal Financing Bank Act of
            1973 (12 USC 2281).

      (q)   Related Parties
            The Bank conducts most of its financial transactions with other Federal entities, and therefore, the
            financial statement balances that represent transactions with other Federal entities include all assets;
            liabilities, except borrowings from the public of $10 as of September 30, 2011 and 2010; revenues;
            and expenses.

(2)   New Accounting Pronouncements
      (a)   Newly Implemented Accounting Pronouncements
            On October 1, 2010, the Bank implemented FASB issued Accounting Standards Update (ASU) No.
            2010-06, Improving Disclosures about Fair Value Measurements. The ASU requires disclosure of
            gross activity in Level 3 of the fair value hierarchy and adds a requirement to separately disclose the
            amounts of significant transfers in and out of Level 1 and 2 of the fair value hierarchy, describing the
            reasons for the transfers. The ASU also clarifies existing disclosure requirements regarding the level
            of disaggregation of fair value measurements and inputs, and valuation techniques. The adoption did
            not have a significant effect on the financial statements.


                                                        13                                             (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010
                                             (Dollars in thousands)



      (b)   Future Accounting Pronouncements
            On May 17, 2011, FASB issued ASU No. 2011-04, FASB ASC 820, Fair Value Measurement and
            Disclosures (precodification FASB SFAS No. 157, Fair Vaule Measurements, as amended). The
            ASU explains how to measure fair value. The disclosures are effective for reporting periods
            beginning after December 15, 2011. The Bank will adopt the applicable provisions of FASB ASU
            No. 2011-04 in fiscal year 2012. The adoption is not expected to have a significant effect on the
            financial statements.

(3)   Investments Held to Maturity (the HOPE Bond Transaction)
      The Secretary is authorized to issue up to $300,000,000 HOPE bonds under the HOPE for Homeowners
      Act of 2008, and the Bank will purchase the HOPE bonds issued by the Secretary. The HOPE bonds
      purchased by the Bank are reported as investments held-to-maturity, and the related interest receivable is
      reported as accrued interest receivable in the Bank’s statements of financial position. The interest rate is
      0.010% and 0.153% as of September 30, 2011 and 2010, respectively, with floating interest rates reset
      quarterly. The bonds have 30-year maturity dates starting on August 27, 2038 and ending on July 15, 2041.

      The carrying amount, unrealized holding losses, and fair value of the HOPE bonds at September 30, 2011
      and 2010 were as follows:

                                                                            Unrealized
             September 30, 2011                        Carrying              holding               Fair
       Investments held to maturity:                   amount                 losses               value
         U.S. Treasury Nonmarketable
            Securities – HOPE Bonds             $         493,254                 (60)             493,194
                    Total                       $         493,254                 (60)             493,194


                                                                            Unrealized
             September 30, 2010                        Carrying              holding               Fair
       Investments held to maturity:                   amount                 losses               value
         U.S. Treasury Nonmarketable
            Securities – HOPE Bonds             $         492,614                 (48)             492,566
                    Total                       $         492,614                 (48)             492,566


      The Bank borrowed funds from Treasury at the same terms to purchase the HOPE bonds.

(4)   Loans Receivable
      Loans receivable represent the outstanding balances being treated as loans to agencies. The Bank has the
      ability and intends to hold loans receivable until maturity or payoff. At September 30, 2011, the Bank had
      outstanding loans receivable of $57,087,892, with interest rates ranging from 0.010% to 13.935%, and

                                                       14                                            (Continued)
                                       FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2011 and 2010
                                               (Dollars in thousands)



      maturity dates from October 1, 2011 to January 2, 2046. At September 30, 2010, the Bank had outstanding
      loans receivable of $59,308,291, with interest rates ranging from 0.152% to 15.325%, and maturity dates
      from October 1, 2010 to July 17, 2045.

      Loans receivable at September 30, 2011 and 2010, consist of the following:

                                 Agency                                        2011              2010
       Rural Utilities Service, Department of Agriculture               $   32,503,417       28,905,983
       U.S. Postal Service                                                  13,000,000       12,000,000
       Credit Liquidity Fund, National Credit Union
       Administration                                                              —         10,100,705
       Department of Energy                                                  6,928,661        2,931,043
       Rural Utilities Service, Department of Agriculture
          certificates of beneficial ownership                               1,674,900        2,357,900
       General Services Administration                                       1,898,140        1,973,049
       Historically Black Colleges and Universities, Department
          of Education                                                        781,750           613,870
       Foreign Military Sales, Department of Defense                          294,429           417,255
       Veterans Administration Transitional Housing Program                     4,780             4,836
       Small Business Administration                                              578             2,130
       Federal Railroad Administration, Department
          of Transportation                                                     1,237             1,520
                      Total loans receivable                            $   57,087,892       59,308,291


      The loans receivable due within one year are $12,555,790 and $20,771,654 as of September 30, 2011 and
      2010, respectively.

(5)   Borrowings
      Under the FFB Act, the Bank may, with the approval of the Secretary, borrow without limit from the
      Treasury. Repayments on Treasury borrowings match the terms and conditions of corresponding loans
      made by the Bank and bear interest at the respective rate as determined by the Secretary for all borrowings,
      except borrowings used to fund certain guaranteed loans based on the FCRA. For certain borrowings based
      on FCRA, the interest rate is determined annually by the borrowing agencies using the FCRA and Office
      of Management and Budget guidelines. The Bank’s non-FCRA borrowings are repayable at any time,
      except for loans with fixed-price call options in the no-call period.

      At September 30, 2011, the Bank had $36,578,875 of Treasury borrowings for non-FCRA related loans,
      with interest rates ranging from 0.000% to 8.961%, and maturity dates from October 3, 2011 to January 2,
      2046. Additionally, at September 30, 2011, the Bank had $9,230,123 of Treasury borrowings used to fund
      guaranteed loans based on the FCRA with interest rates ranging from 1.600% to 4.723%, and a maturity
      date of September 30, 2050.

                                                        15                                           (Continued)
                                        FEDERAL FINANCING BANK
                                          Notes to Financial Statements
                                          September 30, 2011 and 2010
                                              (Dollars in thousands)



      At September 30, 2010, the Bank had Treasury borrowings for non-FCRA related loans of $44,214,738,
      with interest rates ranging from 0.081% to 9.376%, and maturity dates from October 1, 2010 to July 17,
      2045. At September 30, 2010, the Bank had $2,986,374 of Treasury borrowings used to fund guaranteed
      loans based on the FCRA with interest rates ranging from 2.680% to 4.723% and a maturity date of
      September 30, 2050. Finally, at September 30, 2011 and 2010, the Bank had borrowings of $8,441,480 and
      $10,238,990, respectively, and an associated unamortized premium of $137,781 and $180,007,
      respectively, from the Civil Service Retirement and Disability Fund, which is administered by the Office of
      Personnel Management. At September 30, 2011, these borrowings were at a stated interest rate of 4.625%,
      effective interest rate of 4.625%, and with maturity dates ranging from June 30, 2012 to June 30, 2019. At
      September 30, 2010, these borrowings were at stated interest rates ranging from 4.625% to 5.250%,
      effective interest rate of 4.125%, and with maturity dates ranging from June 30, 2011 to June 30, 2019.
      Borrowing from the public amounted to $10 at September 30, 2011 and 2010.

      The scheduled principal repayments below reflect maturities of the Bank’s borrowings and do not
      necessarily match the maturities of assets in the Bank’s loan portfolio. Scheduled principal repayments of
      borrowings as of September 30, 2011 are as follows:

                         Repayment date                                       Amount
                            2012                                        $   12,757,823
                            2013                                             2,996,496
                            2014                                             3,291,507
                            2015                                             2,450,956
                            2016                                             2,981,588
                            2017 and thereafter                             29,772,108
                                        Total principal payments            54,250,478
                                        Plus unamortized premium               137,781
                                        Total borrowings                $   54,388,259


(6)   Fair Value of Financial Instruments and Interest Rate Volatility
      (a)   Fair Value Hierarchy
            The accounting standards establish a fair value hierarchy that prioritizes the inputs to valuation
            techniques used to measure fair value. The hierarchy gives the highest priority to unadjusted quoted
            prices in active markets for identical assets or liabilities (Level 1 measurements) and the lowest
            priority to measurements involving significant unobservable inputs (Level 3 measurements). The
            three levels of the fair value hierarchy are as follows:

            •   Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
                that the Bank has the ability to access at the measurement date.



                                                         16                                              (Continued)
                                  FEDERAL FINANCING BANK
                                    Notes to Financial Statements
                                    September 30, 2011 and 2010
                                        (Dollars in thousands)



      •   Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
          the asset or liability, either directly or indirectly.
      •   Level 3 inputs are unobservable inputs for the asset or liability.

      The level in the fair value hierarchy within which a fair value measurement in its entirety falls is
      based on the lowest level input that is significant to the fair value measurement in its entirety.

      The Bank does not hold any financial instruments that are measured at fair market value on a
      recurring basis or for which the fair value option has been elected at September 30, 2011 and 2010.

      All the fair values shown in this note are performed using Level 2 inputs at September 30, 2011 and
      2010. The Bank’s fair value measurements maximize the use of observable inputs and do not use
      significant unobservable inputs (Level 3).

      The financial statements as of and for the year ended September 30, 2011 and 2010 do not include
      any nonrecurring fair value measurements relating to assets or liabilities for which the Bank has
      adopted the provisions of FASB ASC 820.

(b)   Fair Value of Financial Instruments
      The following table presents the carrying amounts and estimated fair values of the Bank’s financial
      instruments at September 30, 2011 and 2010. The fair value of a financial instrument is the amount
      that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
      market participants at the measurement date.

                                                         2011                               2010
                                                                Fair value                         Fair value
                                            Carrying             (Level 2       Carrying            (Level 2
                                            amount                inputs)       amount               inputs)
       Financial assets:
         Investments held to maturity $    493,254              493,194           492,614             492,566
         Loans receivable               57,087,892           64,744,775        59,308,291          64,470,446
       Financial liabilities:
         Borrowings                       $ 54,388,259       60,595,936       57,620,119           61,525,613


      The carrying amounts shown in the table are included in the statements of financial position under
      the indicated captions.

      The fair values of the financial instruments shown in the above table as of September 30, 2011 and
      2010 represent management’s best estimates of the amounts that would be received to sell those
      assets or that would be paid to transfer those liabilities in an orderly transaction between market
      participants at that date. Those fair value measurements maximize the use of observable inputs.


                                                  17                                                (Continued)
                           FEDERAL FINANCING BANK
                             Notes to Financial Statements
                             September 30, 2011 and 2010
                                 (Dollars in thousands)



The following methods and assumptions were used to estimate the fair value of each class of
financial instruments:

     Funds with U.S. Treasury: The carrying amount approximates fair value because of the liquid
     nature of the funds with Treasury.
     Loans Receivable and Investments held-to-maturity: The fair value for the majority of the
     loan portfolio (approximately 99.6%) and investments held-to-maturity is determined using
     discounted cash flow analyses based on contractual repayment terms. The Bank’s loans
     receivable, investments held-to-maturity, and interest are backed, or have a commitment to be
     backed, by the full faith and credit of the U.S. Government. As such, the Bank’s assets are the
     equivalent of Treasury securities. The discount rates used in the loans receivable and
     investment analysis are based on interest rates currently being offered by the Bank on loans of
     similar maturity and other characteristics, plus 25 basis points added as a factor to account for
     the liquidity premium. The Bank obtains the discount rates from the daily TNIC, which is
     created daily with an interest rate for each day from 1 month to 30 years, based on the bid
     yields that day for Treasury securities traded in the public markets. The TNIC yields represent
     Treasury’s best estimate of its own cost of borrowing for any given term on that business day.
     For the rest of the loan portfolio (approximately 0.4%), the Bank’s borrowers purchased a call
     option at the loan origination date. For the loans that have aged past the first available call
     date, the fair value is determined as the remaining balance plus the fixed call premium in effect
     at the time of valuation. For the loans with call options that have not reached the first call date,
     the fair value is determined by evaluating each loan through a call option model using the
     interest rates from the daily TNIC plus 25 basis points and the same terms in effect for a new
     comparable loan.

     Borrowings: The fair value for all borrowings, except for borrowings used to fund certain
     guaranteed loans based on the FCRA, is determined using discounted cash flow analyses
     based on contractual repayment terms. The discount rates used in the borrowings analysis are
     based on interest rates of current borrowings from Treasury using similar maturity and other
     characteristics, plus 25 basis points added as a factor to account for the liquidity premium. The
     Bank obtains the discount rates from the daily TNIC.
     Fair value for borrowings used to fund certain guaranteed loans based on the FCRA is
     determined based on an asset-backed securities model, for which the Bank does not expect to
     exercise the embedded call option. The asset-backed securities model reflects the cash flow
     profile of the respective cohorts and is discounted using interest rates from the daily TNIC,
     plus 25 basis points added as a factor to account for the liquidity premium.
     Advances to Others, Accrued Interest Receivable, Accrued Interest Payable, and Other
     Liabilities: The carrying amount of advances to others, accrued interest receivable, accrued
     interest payable, and other liabilities approximate fair value as they represent the amounts
     expected to be realized or paid and are current assets and liabilities.



                                            18                                              (Continued)
                                       FEDERAL FINANCING BANK
                                         Notes to Financial Statements
                                         September 30, 2011 and 2010
                                             (Dollars in thousands)



      (c)   Interest Rate Volatility
            The fair value of the Bank’s loans receivable, investments, and borrowings changes in response to
            the interest rate volatility that results from the current economic conditions, market perception, and
            expectations. However, because the interest rates and maturities of loans receivable, investments,
            and borrowings are very similar, the fair market values of both assets and liabilities increase or
            decrease in the same direction and in similar amounts.

(7)   Net Position
      At September 30, 2011 and 2010, the net position includes the following:

                                                                                 2011               2010
       Transfers to Treasury                                           $    (1,682,847)         (1,682,847)
       Cumulative results of operations and gains/losses on
         early extinguishment of borrowings treated as capital
         transactions                                                        5,682,162            5,476,041
                     Net position                                      $     3,999,315            3,793,194


      Included in the net position activity is income the Bank earned prior to fiscal year 2000 that the Bank
      transferred to Treasury.

(8)   Loss on Extinguishment of Borrowings Treated as Capital Transactions
      In fiscal year 2011, the Bank made early repayments to the Treasury totaling $902,906, resulting in a net
      loss of $648. The repayment represents a capital transaction, and the loss with Treasury is reported as a
      loss on extinguishment of borrowings treated as capital transaction on the statements of operations and
      changes in net position. The Bank made an early repayment of debt in fiscal year 2010 for $907,680 and a
      net loss of $4,235.

(9)   Capitalized Interest
      Capitalized interest receivable was approximately $12,714 and $8,524, and the related capitalized interest
      payable was $551,370 and $392,120 as of September 30, 2011 and 2010, respectively. Capitalized interest
      receivable and payable are reported as part of the loans receivable and borrowing balances, respectively, on
      the statements of financial position.




                                                       19                                            (Continued)
                                      FEDERAL FINANCING BANK
                                        Notes to Financial Statements
                                        September 30, 2011 and 2010
                                            (Dollars in thousands)


(10) Loan Commitments
     The Bank makes loan commitments to extend credit to Federal program agencies based on the loan
     agreements executed between the parties. The loan commitments are not reported on the statements of
     financial position and generally have fixed expiration dates or other termination clauses. Since many of the
     loan commitments are expected to expire without being completely drawn upon, the total loan commitment
     amounts do not necessarily represent future cash requirements. The Bank uses the same credit policies in
     making loan commitments as it does for loans receivable reported on the statements of financial position.
     The Bank funds the loan commitments with its borrowing authority from the Secretary. There is no
     exposure or credit risk related to these commitments.

     The contract amounts and remaining loan commitments by program agency as of September 30, 2011, are
     as follows:

                                                                             Contract        Remaining loan
                                 Agency                                      amounts          commitments
      Department of Education – FFEL Conduit                         $     60,000,000           60,000,000
      National Credit Union Administration – CLF                           10,000,000           10,000,000
      Rural Utilities Service, Department of Agriculture                   27,978,809           11,999,600
      U.S. Postal Service                                                  13,425,000            2,000,000
      Department of Energy                                                 18,109,961           11,351,989
      Historically Black Colleges and Universities,
        Department of Education                                               692,455              186,997
      General Services Administration                                         163,200                8,289
                   Total commitments                                  $   130,369,425           95,546,875


(11) Subsequent Events
     The Bank has evaluated subsequent events from the statements of financial position date through
     November 14, 2011, the date at which the financial statements were available to be issued, and determined
     there are no other items to disclose.




                                                      20
                                    FEDERAL FINANCING BANK
                              Other Supplementary Information – Schedule 1
                      Unaudited – See Accompanying Independent Auditors’ Report
                                       September 30, 2011 and 2010
                                             (Dollars in thousands)



In prior years, the Federal Financing Bank (the Bank) purchased certificates of beneficial ownership (i.e.,
loans reported as loans receivable on the statement of financial position) from the Rural Utilities Service
(RUS), a component of the U.S. Department of Agriculture. RUS used the funds received from the Bank to
issue loans to nonfederal entities, specifically private utility companies. In 1987, Congress passed
legislation (i.e., 7 USC Sec. 940c Cushion of Credit Payments Program) that required RUS to develop and
promote a program to encourage private utility companies to voluntarily make deposits into cushion of
credit accounts established within RUS. The legislation also indicated that a private utility company may
reduce the balance of its cushion of credit account only if the reduction is used to make scheduled
payments on loans received from RUS. In accordance with the legislation, the private utility companies
accrue interest at a rate of 5% per annum or the weighted average rate of the certificates of beneficial
ownership on cash deposited into the cushion of credit accounts with RUS. The legislation also indicated
that RUS shall receive an interest credit from the Bank equal to the amount of interest RUS pays to the
private utility companies. The Bank records the interest credit in the period the cost is incurred as a
legislatively mandated interest credit (contra-revenue to interest on loans) in the statements of operations
and changes in net position. As of September 30, 2011, the outstanding principal balance of the nine RUS
loans subject to the certificates of beneficial ownership (CBO) legislation totaled $1,674,900, with interest
rates ranging from 7.755% to 13.935 %, and maturity dates ranging from 2012 to 2021. In October 1998,
the Bank received an appropriation that offset the RUS-CBO interest credits by $917,699.

The interest credits that the Bank has provided RUS-CBO through September 30, 2011 are as follows:

                      Fiscal year                                     Interest credits
                      1988–2007                                       $    2,018,977
                      2008                                                    97,998
                      2009                                                   201,087
                      2010                                                   271,461
                      2011                                                   249,813
                                     Total interest credits                2,839,336
                      Less appropriation                                   (917,699)
                                     Total                            $   1,921,637




                                                      21
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:


We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2011 and 2010 and the related statements of operations and changes in net position and cash
flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our report
thereon dated November 14, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the Bank is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered the Bank’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of the Bank’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not for the purpose of expressing an opinion on the effectiveness of the
Bank’s internal control over financial reporting. Accordingly, we do not express an opinion on the
effectiveness of the Bank’s internal control over financial reporting. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct, misstatements on a timely basis. A material weakness is a deficiency, or combination of
deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected, on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                                                 22
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
We noted a certain matter that we have reported to Bank management in a separate letter dated
November 14, 2011.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




November 14, 2011




                                                  23
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
the Board of Directors, Federal Financing Bank:


We have audited the statements of financial position of the Federal Financing Bank (the Bank) as of
September 30, 2011 and 2010, and the related statements of operations and changes in net position and
cash flows for the years then ended (hereinafter referred to as “financial statements”), and have issued our
report thereon dated November 14, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the Bank is responsible for complying with laws, regulations, and contracts applicable
to the Bank. As part of obtaining reasonable assurance about whether the Bank’s financial statements are
free of material misstatement, we performed tests of the Bank’s compliance with certain provisions of
laws, regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, and contracts applicable to
the Bank. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress, and is not intended to be and should not be used by anyone other than these specified
parties.




November 14, 2011




                                                                24
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
